Oversight Review                 June 2, 2008

          Quality Control Review of
            Army Audit Agency's
        Special Access Program Audits


          Report No. D-2008-6-006
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DfllVE
                              ARLINGTON, VIRGINIA 22202-4704

                                                                            JUN - 2 2008

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Quality Control Review of Army Audit Agency's Special Access Program Audits
         Report No. D-2008-6-006                                    .

       We are providing this report for your information and use. We reviewed the Army Audit
Agency's (AAA) system of quality control over Special Access Programs (SAP) audits for the
two years ended September 30, 2007. The Government Auditing Standards (GAS) requires that
an audit organization performing audits and/or attestation engagements in accordance with GAS
should have an appropriate internal quality control system in place and undergo an external peer
review at least once every three years by reviewers independent of the audit organization being
reviewed. As the organization that has audit policy and oversight responsibilities for audits in
the DoD, we conducted the external quality control review ofthe AAA SAP audits in
conjunction with the Air Force Audit Agency's (AFAA) review of the AAA non-SAP audits.

        An audit organization's quality control policies and procedures should be appropriately
comprehensive and suitably designed to provide reasonable assurance of meeting the objectives
of quality control. We tested the AAA SAP system of quality control for audits to the extent
considered appropriate.

        In our opinion, the system of quality control for the audit function of AAA SAPs in effect
for the period ended September 30,2007, was designed in accordance with quality standards
established by GAS. Further, the internal quality control system was operating effectively to
provide reasonable assurance that SAP audit personnel were following established policies,
procedures, and applicable auditing standards. Accordingly, we are issuing an unmodified
opinion on your SAP audit quality control system for the review period ended
September 30, 2007.

        Appendix A contains comments, observations, and recommendations where AAA can
improve its quality control system, as well as our responses to AAA management comments to
the draft report. Appendix B contains the scope and methodology of the review and Appendix C
provides the full text of management comments in response to the draft report. We appreciate
the courtesies extended to the staff. Questions should be directed to Mr. Robert Kienitz at
(703) 604-8754 (DSN 664-8754), Robert.Kienitz@dodig.mil.


                                              CPJLy;(            j)~jY
                                             Carolyn'R. Davis
                                             Acting Assistant Inspector General
                                              for Audit Policy and Oversight
